                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




Assessment Report
Assessment of Audit Coverage of Cost
Allowability for Lawrence Livermore National
Laboratory under Department of Energy
Contract No. DE-AC52-07NA27344 during
Fiscal Years 2011-2012




 OAS-V-14-14                         August 2014
                                   Department of Energy
                                     Washington, DC 20585

                                          August 13, 2014



MEMORANDUM FOR THE ACTING MANAGER, LIVERMORE FIELD OFFICE


FROM:                     David Sedillo, Director
                          Western Audits Division
                          Office of Inspector General

SUBJECT:                  INFORMATION: Report on "Assessment of Audit Coverage of Cost
                          Allowability for Lawrence Livermore National Laboratory under
                          Department of Energy Contract No. DE-AC52-07NA27344 during
                          Fiscal Years 2011-2012"

BACKGROUND

Lawrence Livermore National Laboratory (LLNL) is part of the Department of Energy's
(Department) National Nuclear Security Administration (NNSA) which has national security
responsibilities that include ensuring the safety, security and reliability of the Nation's nuclear
weapons stockpile. In May 2007, NNSA awarded a 7-year contract to Lawrence Livermore
National Security, LLC to manage and operate LLNL. During Fiscal Years (FYs) 2011 and
2012, LLNL incurred and claimed costs totaling $1,296,940,581 and $1,628,530,304
respectively.

As an integrated management and operating contractor, LLNL's financial accounts are integrated
with those of the Department, and the results of transactions are reported monthly according to a
uniform set of accounts. LLNL is required by its contract to account for all funds advanced by
the Department annually on its Statement of Costs Incurred and Claimed, to safeguard assets in
its care, and to claim only allowable costs. Allowable costs are incurred costs that are
reasonable, allocable and allowable in accordance with the terms of the contract, applicable cost
principles, laws and regulations.

To help ensure that only allowable costs are claimed by the Department's integrated contractors
and to make efficient use of available audit resources, the Office of Inspector General (OIG), the
Department's Office of Acquisition and Project Management, and the integrated management
and operating contractors and other select contractors have implemented a Cooperative Audit
Strategy (Strategy) to make efficient use of available audit resources while ensuring that the
Department's contractors claim only allowable costs. The Strategy places reliance on the
contractors' internal audit function (Internal Audit) to provide audit coverage of the allowability
of incurred costs claimed by contractors. Consistent with the Strategy, LLNL is required by its
contract to maintain an Internal Audit activity with responsibility for conducting audits,
including audits of the allowability of incurred costs. In addition, LLNL is required to conduct
or arrange for audits or reviews of its subcontractors when costs incurred are a factor in
determining the amount payable to a subcontractor.

To help ensure that audit coverage of cost allowability was adequate for FYs 2011 and 2012, the
objectives of our assessment were to determine whether:

   •   Internal Audit conducted cost allowability audits that complied with professional
       standards and could be relied upon;

   •   LLNL conducted or arranged for audits or reviews of its subcontractors when costs
       incurred were a factor in determining the amount payable to a subcontractor; and

   •   Questioned costs and internal control weaknesses impacting allowable costs that were
       identified in audits and reviews have been adequately resolved.

RESULTS OF ASSESSMENT

Based on our assessment, nothing came to our attention to indicate that the allowable cost-related
audit work performed by Internal Audit for FYs 2011 and 2012 could not be relied upon. We
did not identify any material internal control weaknesses with the cost allowability audits, which
generally met the International Standards for the Professional Practice of Internal Auditing
prescribed by the Institute of Internal Auditors. Internal Audit identified $13,430 in questioned
costs as part of its allowable cost audits which have since been resolved and reimbursed to the
Department. In addition, we found that LLNL conducted reviews of subcontractors when costs
incurred were a factor in determining the amount payable to a subcontractor. LLNL's
subcontract reviews resulted in $794,232 in questioned costs, all of which have been resolved.
Further, $3,595,187 of questioned costs were identified in other reviews performed by Internal
Audit, LLNL, and the Department of which $1,252,151 remained unresolved as of August 2014.
As such, we are questioning $1,252,151.

We did, however, identify two issues which need to be addressed to ensure that only allowable
costs are claimed and reimbursed to the contractor. Specifically, our testing of Internal Audit's
cost allowability audit work identified additional questioned costs. In particular, we determined
that LLNL purchased fiduciary liability insurance without required Contracting Officer approval
in the amount of $19,101. Due to this exception, we expanded our tests of insurance transactions
and identified additional insurance costs totaling $1,442,799 that were incurred during FYs 2008
through 2012. We also identified $304,158 in unallowable daycare insurance costs that were
claimed by LLNL and reimbursed by the Department. LLNL repaid the $304,158 to the
Department after we brought it to their attention.

A summary of questioned and unresolved costs is presented in Attachment 3. In addition, we
identified one instance of cost charging which appeared to constitute a potential noncompliance
with Cost Accounting Standards (CAS) 405, Accounting for Unallowable Costs.



                                                2
Testing of Cost Allowability Work

Our testing of Internal Audit's work disclosed additional questioned costs. Specifically, we
selected eight transactions reviewed by Internal Audit as part of its cost allowability audits for
FYs 2011 and 2012 for testing. Our testing resulted in one exception for $19,101 related to the
purchase of fiduciary liability insurance without the required Contracting Officer approval.
Department Acquisition Regulation 970.5228-1, Insurance – Litigation and Claims, as
incorporated in LLNL's contract, states that the contractor shall procure and maintain such bonds
and insurance as required by law or approved in writing by the Contracting Officer. However,
according to the Contracting Officer, LLNL had not requested or received approval to purchase
fiduciary liability insurance. In addition, we noted that, due to an oversight, Internal Audit had
not included the Contracting Officer approval attribute in its original testing of the insurance
transaction.

We brought this matter to Internal Audit's attention and, in response; Internal Audit issued a
supplement to its previously issued cost allowability audit report. In the supplemental report,
Internal Audit recommended that LLNL review insurance approvals and submit all insurance
types not approved to the Contracting Officer for approval. This recommendation was still open
as of August 2014; however, in our opinion, the supplemental report did not fully serve the
purpose of disclosing and rectifying the error because it did not question the $19,101. According
to the Internal Audit Manager, Internal Audit did not question the costs because it did not think
the costs were questionable unless the Contracting Officer had specifically disapproved the
insurance purchase. However, since the $19,101 was not approved as required, we are
questioning that amount. Nonetheless, we concluded that the exception had no material effect on
the overall reliability of Internal Audit's incurred costs work because it was not a systemic issue.

Expanded Testing of Insurance Transactions

Due to the exception noted above, we expanded our testing of insurance transactions and
identified additional questioned costs totaling $1,746,958 that were incurred during FYs 2008
through 2012. During our review, we found that LLNL purchased 16 types of insurance; 6 of
which are required by law and, thus, did not require pre-approval by the Contracting Officer. As
stated previously, according to LLNL's contract, the remaining 10 types of insurance required
written approval from the Contracting Officer. However, LLNL did not submit seven insurance
types to the Contracting Officer for approval. Despite the lack of prior approval, the Contracting
Officer told us that a number of insurance types appeared to be for a legitimate business need
and in the best interest of the Department; therefore, she may retroactively approve those
particular insurance types after further review. Ultimately, we identified four instances where
LLNL purchased insurance policies that, in addition to not being pre-approved by the
Contracting Officer, were questionable under the terms of the contract, or were unreasonable.

                                Directors and Officers Insurance

We identified costs totaling $621,900 related to directors and officers insurance claimed by
LLNL and reimbursed by the Department during FYs 2008 through 2012. The primary objective
of this insurance coverage is to provide personal protection to various LLNL directors and

                                                 3
officers. This is a personal benefit for the covered individual rather than for LLNL. As such, the
Contracting Officer stated that it is conceivably allowable as a fringe benefit, but disallowed as
an operating cost. We found that LLNL charged directors and officers insurance as an operating
cost even though the Contracting Officer specifically directed LLNL in November 2010, that
directors and officers insurance costs were unallowable as an operating cost. LLNL believed the
costs were allowable because the insurance was purchased in connection with the general
conduct of its business; and, thus, charged these costs to the Department. Per the Contracting
Officer, in order for the costs to potentially be allowable, LLNL needed to perform an analysis to
determine whether the costs should be part of the director and officer's compensation since it was
not appropriate to charge them to LLNL's general and administrative cost pool. The Contracting
Officer told us that LLNL had not performed the required analysis despite her direction. Further,
the Contracting Officer asserted that her November 2010 written determination disallowing
directors and officers insurance costs makes them subject to the penalty provisions in the
contract.

                                 Fiduciary Liability Insurance

Our review also disclosed questioned costs totaling $323,103 related to fiduciary liability
insurance reimbursed during FYs 2008 through 2012 that was not reimbursable under the
contract. This type of insurance provides coverage from losses resulting from claims made
against LLNL for wrongful acts in the administration of employee benefits, including breach of
Employee Retirement Income Security Act of 1974 (ERISA) and Health Insurance Portability
and Accountability Act of 1996 duties and responsibilities. The fiduciary insurance purchased
covered LLNL, its directors, officers, and employees who are fiduciaries. During our fieldwork,
we found that fiduciary insurance is not a reimbursable cost by the Department; instead, the cost
is covered by the trust fund of the Benefits and Investments Committee (BIC). The BIC was
established to administer the employee pension and benefit plans of LLNL and Los Alamos
National Laboratory; particularly those pension and benefit plans covered by ERISA. According
to the Contracting Officer, LLNL charged the fiduciary liability insurance to the contract with
the expectation that the trust fund would reimburse the Department; however, the reimbursement
did not occur. After we raised our concern to LLNL officials, they changed their payment
procedure and used the trust fund to directly pay for the most recent fiduciary insurance renewal.

                                   Lease-to-Own Insurance

We are also questioning lease-to-own insurance costs totaling $497,796 that were reimbursed by
the Department during FYs 2008 through 2012, which we determined to be unreasonable. The
Federal Acquisition Regulation Part 31.201-3, Determining Reasonableness, states a cost is
reasonable when it is generally recognized as ordinary and necessary for the conduct of the
contractor's business or the contract performance. This type of insurance provides coverage for
property damage to computer and telecommunications equipment while on lease. However, we
found that this additional coverage was unnecessary because LLNL is already self-insured for
fire, vandalism and malicious mischief and, under its contract, LLNL is indemnified by the U.S.
Government for claims of loss or damage to the leased equipment. LLNL originally purchased
the lease-to-own insurance because its agreement with the lessor specifically stated that LLNL
would maintain additional property damage insurance with respect to the equipment in such

                                                4
amounts and covering such risks that were not covered by self-insurance or indemnified by the
Government. When the new LLNL contract was put into place, the appropriateness of the lease-
to-own insurance was not reevaluated. To her credit, after we brought this issue to the LLNL
Risk/Insurance Manager's attention, she agreed that the additional insurance coverage was
unnecessary and in March 2014, LLNL revised the language in the lease agreement to eliminate
the requirement for "additional" property damage insurance.

                                       Daycare Insurance

Finally, we identified $304,158 in unallowable daycare insurance costs that were claimed by
LLNL and reimbursed by the Department. Daycare insurance provides coverage for bodily
injury, property damage and sexual abuse at the daycare facility. The daycare facility opened its
doors in 1986 and was subsidized by LLNL under the previous contract. In June 2007, it was
mutually agreed in writing between the Contracting Officer and LLNL that no Department funds
were to be used to directly or indirectly support operations of the daycare facility throughout the
contract term from FYs 2008 through 2014. However, we found that daycare insurance costs
were inappropriately charged to and paid by the Department from FYs 2010 through 2012.
Further, we found that in February 2010, former LLNL officials re-categorized daycare
insurance as an allowable cost under the contract without the approval of the Contracting
Officer. We disclosed to current LLNL management and the Contracting Officer that we had
identified costs totaling $304,158 related to daycare insurance costs billed and reimbursed by the
Department during FYs 2010 through 2012. Subsequent to our disclosure, LLNL agreed with
our finding and promptly reimbursed the $304,158 to the Department. Although the daycare
insurance costs were repaid, this situation showed that LLNL's existing internal control structure
was not adequate to detect and prevent these types of occurrences.

Potential CAS 405 Violation

During our fieldwork, we identified one instance of cost charging which appeared to constitute a
potential noncompliance with CAS 405. CAS 405 states that "costs expressly unallowable or
mutually agreed to be unallowable are to be identified and excluded from any billing, claim, or
proposal to a Government contract." It further requires contractors to have designed and
implemented sufficient internal control structures to prevent billing and reimbursement of
unallowable costs to the Department. However, we found that unallowable daycare insurance
costs were claimed by LLNL and reimbursed by the Department. LLNL's accounting practice of
charging insurance costs that were mutually agreed to be unallowable to the contract and the
inability of LLNL's internal control structure to detect that practice warrants further management
attention, including possible imposition of a penalty, to ensure that similar types of potential
unallowable costs are not billed to the Department in the future.

Additional Insurance Costs after FY 2012

During our assessment, we further noted similar insurance costs totaling $565,594 were claimed
by LLNL and reimbursed by the Department from October 2012 through January 2014. Daycare
insurance costs of $119,764 incurred during this period were returned to the Department in
February 2014. However, the remaining costs should be evaluated by the Contracting Officer.

                                                 5
RECOMMENDATIONS

We recommend that the Manager, Livermore Field Office, direct the Contracting Officer to:

    1. Make a determination regarding the allowability of questioned and unresolved costs
       identified in this report and recover those costs determined to be unallowable;

    2. Consider if the penalty clause for costs charged to the Department that were mutually
       agreed to be unallowable or determined unallowable per the Contracting Officer's
       direction should be applied to the questioned costs disclosed in this report;

    3. Ensure that LLNL formally submits insurance types that are not required by law to the
       Contracting Officer for approval; and

    4. Make a determination regarding the potential CAS 405 noncompliance and direct LLNL
       to implement appropriate corrective actions as necessary.

MANAGEMENT RESPONSE AND AUDITOR COMMENTS

NNSA management concurred with the findings and recommendations, and planned to complete
all actions by May 31, 2015. Specifically, management stated that the Contracting Officer is in
the process of making cost allowability determinations and will recover those costs determined
to be unallowable. In addition, the Contracting Officer is in the process of determining whether
the penalty clause for costs charged to the Department that were mutually agreed to be
unallowable or determined unallowable per the Contracting Officer's direction should be applied
to the questioned costs. Further, LLNL has been requested to formally submit insurance types
that are not required by law to the Contracting Officer for approval. Finally, the Contracting
Officer plans to make a determination regarding the potential CAS 405 noncompliance, and
direct LLNL to implement appropriate corrective actions as necessary.

Management's comments and planned actions are responsive to our recommendations.
Management's verbatim comments are included in their entirety in Attachment 1.

SCOPE AND METHODOLOGY

This assessment was performed from June 2013 to August 2014, at LLNL, located in Livermore,
California. The assessment was limited to Internal Audit activities, relevant criteria, prior audits
and reviews, subcontract audits, and resolution of questioned costs and internal control
weaknesses that impact costs claimed by LLNL on its Statement of Costs Incurred and Claimed
for FYs 2011 and 2012. The assessment was conducted under OIG Project Number A13LL043.
To accomplish our objectives, we:

    • Assessed allowable cost audit work conducted by Internal Audit which included review
      of audit reports, workpapers, auditor qualifications, independence, audit planning
      (including risk assessments and overall internal audit strategy), compliance with
      applicable professional auditing standards, and conducted interviews of auditors;

                                                 6
    • Assessed subcontract reviews conducted by LLNL;

    • Randomly selected eight transactions previously reviewed by Internal Audit to evaluate
      whether they were allowable under the contract and Federal regulations;

    • Tested all insurance transactions from October 2008 to January 2014, to determine
      whether LLNL purchased insurance in compliance with applicable Federal regulations,
      Department requirements and contract provisions; and

    • Evaluated resolution of questioned costs and control weaknesses impacting cost
      allowability that were identified in prior audits and reviews conducted by the OIG,
      Internal Audit, and other organizations.

We conducted this assessment in accordance with generally accepted Government auditing
standards for attestation engagements. Those standards require that we plan and perform the
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our objectives. A review is substantially less in
scope than an examination or audit where the objective is an expression of an opinion on the
subject matter and accordingly, for this review, no such opinion is expressed. Also, because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our review. We relied on computer processed data to accomplish
our objectives. Based on a recent review of LLNL's information technology controls performed by
KPMG, LLP on behalf of the OIG, we determined that data was sufficiently reliable for the
purposes of the review. Management waived an exit conference.

This report is intended for the use of the Department, contracting officers, and field offices in the
management of their contracts and is not intended to be and should not be used by anyone other
than these specified parties.

Attachments




                                                  7
                      Attachment 1


MANAGEMENT COMMENTS




         8
    Attachment 1




9
                              Attachment 2


STATEMENT OF COSTS INCURRED




            10
     Attachment 2




11
                                                                                                            Attachment 3


                                  Summary of Questioned and Unresolved Costs
                                   Lawrence Livermore National Security, LLC
                                      Contract No. DE-AC52-07NA27344

                             FY 2008    FY 2009    FY 2010          FY 2011     FY 2012    Reimbursed     Total


    Directors and Officers   $152,205   $151,342   $151,185          $83,583     $83,585                 $621,900
    Fiduciary Liability       $75,139    $71,732    $72,232          $47,500     $75,601                 $342,204
    Lease-to-Own              $98,264    $46,591   $160,072         $138,864     $54,005                 $497,796
    Daycare                                -$698   $114,754         $114,973     $75,129     $304,158             $0


    Questioned Costs1                                                                                   $1,461,900


    Unresolved Costs2                                              $1,252,151                           $1,252,151



    Total                                                                                               $2,714,051


1
Questioned costs are for insurance costs that were not reimbursable by the
Department or unreasonable.
2
 Unresolved costs include costs questioned by Internal Audit in prior audits which
have not been resolved.




                                                              12
